WAIVER
SUPREME COURT OF THE UNITED STATES
No. 120-1797
Federal National Mortgage Association, e

Fedie R. Redd
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Sweeney, Reich & Bolz LLP

Please check the appropriate box:
0

I am a member of the Bar, of the Supreme Court of the United States.. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The 'system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

7/22/21

(Type or print) Name Christopher D. Skoczen
0 Mr.

0 Ms.

0 Mrs.

Firm

Furman Kornfeld & Brennan LLP

Address

61 Broadway

City & State
Phone

ew York, NY.
(212) 867-4100 •

0 Miss

Zip 10006
'Email cskoczen@fkblaW:com
.

A copy of this form must be sent to- petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Fedie R. Redd
1173 Cedar Street
cc: iFreeport, NY 11520
'Petitioner pro se

REM-rap
ilk 2 S 2021

